JESSICA L. ADAIR

AARON D. FORD

Chief of Staff

Attorney General

LESLIE NINO PIRO

KYLE E. N. GEORGE

First Assistant Attorney General

CHRISTINE JONES BRADY
Second Assistant Attorney General

General Counsel

STATE OF NEVADA

HEIDI PARRY STERN

OFFICE OF THE ATTORNEY GENERAL

Solicitor General

100 North Carson Street
Carson City, Nevada 89701

June 15, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Smith v. Russell, No. 20-8101 ***CAPITAL CASE***
Dear Mr. Harris,
I write on behalf of Respondents in the above captioned matter to request an
extension of the time to file a brief in opposition to the petition for writ of certiorari.
Respondents request a 45-day extension of the current deadline of June 21, 2021,
extending the time to file the brief in opposition to August 5, 2021. I have contacted
opposing counsel, and they do not oppose the request for this extension.
The requested extension is necessary and proper because other professional
obligations in numerous other lower court proceedings have required my immediate
attention and prevented me from devoting the time necessary for providing the Court
with a response to the petition for writ of certiorari. Additionally, I am scheduled to be
out of the office on annual leave from June 21, 2021, through June 30, 2021.
Please also note, consistent with the petition’s list of parties, Warden Perry Russell
has replaced Warden Renee Baker as the lawful custodian of the Petitioner. Although
Petitioner inadvertently retained Warden Baker’s name in the caption of his petition,
Warden Russell is automatically substituted for Warden Baker under Sup. Ct. R. 35.3.
As a result, the docket should be changed to reflect this automatic substitution.
Sincerely,
/s/ Jeffrey M. Conner
Jeffrey M. Conner
Deputy Solicitor General
Counsel for Respondents
cc: David Severen Anthony, Counsel for Petitioner (via electronic mail)
Telephone: 775-684-1100 ● Fax: 775-684-1108 ● Web: ag.nv.gov ● E-mail: aginfo@ag.nv.gov
Twitter: @NevadaAG ● Facebook: /NVAttorneyGeneral ● YouTube: /NevadaAG

